<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE USDA FOREST SERVICE FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-301]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-301

                     THE PRESIDENT'S BUDGET REQUEST
                      FOR THE USDA FOREST SERVICE
                          FOR FISCAL YEAR 2020

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-263 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Nick Matiella, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                                WITNESS

Christiansen, Victoria, Chief, USDA Forest Service...............     5

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Accessible Trails Foundation, et al.:
    Letter for the Record........................................    57
Christiansen, Victoria:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    33
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1

 
                     THE PRESIDENT'S BUDGET REQUEST
                      FOR THE USDA FOREST SERVICE
                          FOR FISCAL YEAR 2020

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to consider the President's budget 
request for the USDA Forest Service for FY 2020.
    Before I begin this morning, I do want to extend the 
Committee's condolences over the loss of Forest Service 
firefighter, Captain Daniel Laird, of Yuba City, California. 
Captain Laird died on March 27th in a helicopter crash while 
working on a controlled burn on the Sam Houston National Forest 
in Texas. I think his death is just a reminder to all of us of 
the dangers that our wildland firefighters face every day when 
they go out there to go to work. So know that our thoughts and 
prayers are with his family and the entire Forest Service 
family.
    It is good to have you back before the Committee, Chief 
Christiansen. The last time you were here you were the Interim 
Chief, so congratulations on your appointment now to Chief.
    Let's talk about the budget request. I think we all 
recognize that most every budget that we have ever seen come 
before us is not perfect. This is in that category, but I am 
glad to see it is taking steps to carry out a shared 
stewardship approach to management, working across boundaries 
and sharing decision-making with states and locals. This is 
critically important for the health and the wellbeing of our 
forests and rural communities.
    You know, I always have to talk about the Tongass when we 
are talking about our U.S. national forests. The Tongass, of 
course, is the largest national forest. But about 93 percent of 
its lands are off-limits to most development which certainly 
does not benefit the 32 islanded communities that are located 
there. It is really hard to have an economy when everything is 
off-limits to you. More access is needed in the Tongass and to 
the natural resources that it contains in order to make it a 
working forest again.
    In my mind, that starts with restoring the Roadless Rule 
exemption on the Tongass. So I thank Secretary Perdue and his 
team for accepting the State of Alaska's Petition and directing 
the Forest Service to launch the state-specific rulemaking that 
is now underway.
    As you all continue to work through this, I do hope you 
will recognize that the Roadless Rule is not an example of 
shared stewardship. I do think that we have a greater 
opportunity to apply that model in Southeast Alaska, but it is 
not through the Roadless Rule.
    Turning to fire, the Forest Service estimates that 80 
million acres of its lands are at risk for extreme fire 
behavior. Last year, 8.8 million acres burned across the United 
States, and that was punctuated by the tragic Camp Fire in 
northern California where 86 individuals perished, making it 
the deadliest fire in state history.
    Last month, Governor Newsom issued an emergency declaration 
that curbed environmental litigation and activated the National 
Guard to help expedite fuel treatments near threatened 
communities in recognition of the urgent need to thin our 
forests and address the overwhelming cost of fighting fires.
    In 2018 alone, the Forest Service spent a record-breaking 
$2.6 billion on suppression, $2.6 billion on fire suppression 
last year, really unprecedented. And once again, the agency 
raided non-fire accounts to pay for rising suppression costs. 
But beginning in this fiscal year, we have a new regime 
effectively out there. The Forest Service and Interior will 
have the ``fire fix'' that we passed in the FY'18 Omnibus to 
cover firefighting costs that exceed regular appropriations.
    The ``fire fix'' budget framework treats wildfires more 
like natural disasters to end this destructive practice of fire 
borrowing and to stabilize operations in the non-fire programs. 
I am going to look forward to really seeing how this works, 
because for years we have heard as we have talked to folks in 
different agencies, we don't have the resources and everybody 
blames fire. Well now supposedly that we are working to address 
that, I do hope that we will hear some better reports from the 
various agencies.
    And while I do support the fire fix, I am concerned that 
this budget does not invest enough in the management of our 
forests to reduce the risk of a wildfire. Congress also 
included several modest forest management reforms in the FY'18 
Omnibus and in the new Farm bill. I am going to look forward to 
hearing from the Forest Service again about how it is utilizing 
those tools. You have some new things to work with out there, 
so how you move forward is going to be of interest to this 
Committee.
    I do maintain, however, that these reforms are simply not 
enough to improve the health and resilience of our national 
forests. I am still hopeful we will be able to work on a 
bipartisan basis, hopefully on a bicameral basis, with the 
Administration, on a package of meaningful management reforms 
in this Congress to further address this issue.
    Another area where we have to do more is within recreation. 
Recreation is clearly the greatest use of our national forests 
right now, but I don't see how this budget particularly 
reflects that.
    We had a full committee hearing on recreation last month. 
We heard a lot about the need for permitting reform. I hope 
some of that message got back to you and your folks. I am 
hopeful that we can make some meaningful progress on it.
    And then, as I end my comments this morning, it is on a 
topic of great importance and that is the workplace 
environment. The Forest Service will never effectively carry 
out its multiple-use mission if the workplace environment is 
not safe, if it is not respectful, and if it is not free of 
harassment and retaliation of all kinds. You and I, Chief, have 
had an opportunity, a great opportunity, to discuss this, but I 
think that creating a positive workplace environment must be 
priority number one for you within the agency. So I look 
forward to learning more about your efforts in that area.
    With that, I turn to my friend and colleague from West 
Virginia.

               STATEMENT OF HON. JOE MANCHIN III,
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman. I want to thank 
you for convening the hearing today, Madam Chairman.
    Let me thank you, Chief Christiansen, for your extended and 
most professional service for all of our forests, all of our 
lands. It is quite admirable. I would also like to welcome all 
your staff with you here, and I would love for you to visit the 
Monongahela National Forest with me. It is an amazing forest--
and I have an entire wall in my office displaying the Dolly 
Sods area in the Monongahela. It is pretty special, so maybe we 
can work out a trip one of these days. It is only three hours 
away. We can get you there and get you back to DC quickly.
    In addition to offering breathtaking views, the Monongahela 
Forest is truly a working forest, as most of our forested lands 
across the country are and have always been. The nation needs 
them. They are managed for sustainable, multiple use. They can 
support local economies, provide a stable domestic timber 
supply, conserve special areas for future generations to enjoy, 
and that is what we strive for every day.
    However, all this can only be accomplished if the Forest 
Service has the funding it needs, and I know this is something 
very near and dear to you; but we are going to work through 
this budget that none of us really like, but we are going to 
make it work.
    I am concerned the Administration's budget has not proposed 
investment in the tools that we all need and you need to do 
your job. Some of us who sit on Approps can help with that, 
too, and we will be very diligent about that. There are people 
across the country who depend on the national forests for their 
livelihoods, and I believe that those people would have 
different expectations also.
    The Nature Conservancy published a study in Science last 
year showing that forests in the United States offset 13 
percent of our carbon emissions--13 percent. But with proper 
investment of our resources, they say they could offset as much 
as 21 percent of our emissions by 2025. That is a tremendous 
challenge for us, and it is a tremendous opportunity for all of 
us to achieve.
    I know that the budget, again, could cause some 
constraints, but as I have said, we are intending to work 
through that.
    I appreciate the work the Forest Service has done through 
the Land and Water Conservation Fund (LWCF) to enhance access 
for hunters, anglers, and hikers. Across the nation, more than 
40,000 projects have come to fruition thanks to LWCF and 
showing some of our nation's most spectacular places, like 
again, Dolly Sods, are conserved and accessible for generations 
to come.
    Just a few weeks ago, Congress permanently authorized the 
LWCF. The bill passed the Senate by a remarkable vote of 92 to 
8, and I would like to thank all of my colleagues and the 
Chairman for her leadership on this effort. This week I will be 
introducing a bill with Senator Gardner and several members of 
this Committee to provide permanent, full funding for LWCF; 
however, your budget, again, hits LWCF pretty hard with a zero 
but we have to work through that one.
    I do appreciate the Forest Service has set an ambitious 
goal for timber harvesting. I am hopeful that this goal will 
ultimately be accompanied by a proportionate increase in 
funding for timber programs. It is also critical that any 
increased harvests are accomplished in a sustainable way that 
recognizes the important role our forests play in carbon 
dioxide reductions.
    Congress enacted the fire borrowing fix last year. We 
included an extra $649 million so that the Forest Service could 
reinvest in their non-fire programs that have experienced 
reductions as fire costs have increased.
    As you know, our forests have been hit hard the past few 
years with flooding, invasive species and other challenges. Our 
timber industry in West Virginia can certainly use some help, 
but the Administration budget, again, does not propose to use 
that $649 million that way.
    I will also highlight that the budget does not support 
Secure Rural Schools (SRS). This is extremely important for 
rural America, but definitely rural West Virginia. I have 
received numerous letters from school superintendents and 
business managers that rely on Secure Rural Schools funding to 
support critical services. For example, I received an email 
from the Finance Director of the Pocahontas County Board of 
Education, who is grappling with difficult decisions that she 
will need to make around staffing and budget cuts due to the 
pending reductions in the SRS funds. Without Secure Rural 
Schools funds, Pocahontas County would receive $72,000 next 
year. That is compared to the prior year's amount of $750,000. 
It is truly unconscionable on this one.
    I, along with Senator Wyden, Chairman Murkowski and several 
other members of this Committee, believe that we need to be 
investing in our rural communities. These communities have 
already built that money into their budgets, they depend on it, 
and that is why we introduced legislation earlier this year to 
extend the Secure Rural Schools program.
    Finally, it is important to emphasize the impacts that 
climate change is having on our forests. Insect outbreaks are 
occurring at unprecedented levels; wildfires are destroying 
thousands of homes each year; and scientists have attributed 
these things, at least in part, to climate change.
    Our Committee will be holding a hearing, Thursday, later 
this week, specifically to explore potential solutions to 
address climate change. I would have liked to see additional 
funds in this budget for forest health and for reforestation 
because our forests need assistance in order to adapt to the 
changing climate that we are all experiencing.
    I look forward to the discussion with you, Chief 
Christiansen, on the investments that we need to be making in 
our national forests and the priorities that you might have.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    Chief Christiansen, why don't you go ahead and begin the 
morning with whatever comments you would like to present to the 
Committee, and we will engage in back and forth with questions.
    Welcome, again, to the Committee.

          STATEMENT OF VICTORIA CHRISTIANSEN, CHIEF, 
                      USDA FOREST SERVICE

    Ms. Christiansen. Thank you, Madam Chairman, Ranking 
Member, and members of the Committee. Thank you for inviting me 
back here today, and thank you for your condolences of the loss 
of one of our own who was conducting an operation to improve 
the conditions of America's forests. We laid him to rest on 
Saturday with a heavy heart.
    I deeply appreciate your staunch support as we work 
actively and innovatively to manage our forests and grasslands. 
Today I will discuss three areas of our work: our high points 
and our progress to actively steward the nation's forests and 
grasslands, our grounds plan for 2020, and our work to champion 
a strong workforce and healthy workplace.
    Last year was not business as usual for the Forest Service. 
We made good use of the funds for new authorities and tools to 
do more to confront the threats facing forests and communities. 
We increased our work to achieve a 20-year high in forest 
treatment, yielding 3.2 billion board feet of timber and 
treating 3.4 million acres to reduce hazardous fuels, 
surpassing this year's targets.
    Internally, we're nearing completion of critical reforms 
that ease process burdens, reduce costs, and break barriers 
that slow our work. We're close to completing work that 
streamlines the decision process and meets our environmental 
responsibility. We took steps to be more cost effective in fire 
response and pursuing long-term actions to reduce costs. We are 
improving our financial accountability. We understand there is 
no blank check. We geared up fully to employ new Farm bill 
authorities. They put more science-based tools in our tool box 
to do more work. Expansion of Good Neighbor Authority and 
provisions for wood innovation will rapidly be put to good use.
    Shared stewardship is fast becoming our preferred mode for 
doing work. It increases our chance of improving forest health. 
We have reached out and worked across boundaries to reduce fire 
risk, improve forest conditions, and help communities. We've 
increased work with states to execute nearly 200 Good Neighbor 
agreements in 37 states.
    We are foraging shared stewardship agreements that set 
mutual goals and priorities at large-scale work. Secretary 
Purdue signed the first with the Western Governors' 
Association. Idaho soon followed and more are on the way.
    The Forest Service is well-positioned to build on this 
momentum. The President's $5.7 billion budget places emphasis 
on our critical work. It focuses on reducing wildfire risk, 
improving forest and grassland conditions, and contributing to 
rural economies. It reflects tough choices and tradeoffs. It 
helps us build on the shared stewardship approach.
    In Fiscal Year '20 we're also pleased the fire funding fix 
will take effect. The damaging practice of fire transfers will 
likely become part of the past. We will no longer sacrifice 
critical work to pay for firefighting. The $1.3 billion request 
for fire preparedness helps us to be ready for another tough 
fire year.
    Lastly, our mission success depends on a highly skilled, 
motivated workforce. We will continue, with conviction, our 
work to end sexual harassment and retaliation. Last year we 
listened to employees, and we learned from them and we acted to 
bring about change.
    Today, employees have been better equipped with new tools, 
stricter policies, a new code of conduct, and supervisory 
support. We're better at holding bad actors accountable. 
Sustained cultural change will take longer than any of us want, 
but I'm determined to lead a permanent shift in the Forest 
Service.
    In turn, we will make good on the investments of this 
Congress and provide the services and sound stewardship the 
nation deserves.
    Thank you. I'm happy to take your questions.
    [The prepared statement of Ms. Christiansen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Chief.
    I have a series of questions that I want to ask that are 
Alaska-related. Those will be my first round, but since your 
final point there was focused on the workplace environment and 
your effort to eliminate all levels of harassment or, just say, 
working environment, that is just not healthy.
    I was provided an article that appeared in this morning's 
Wildfire Today and the headline is, ``Forest Service Battalion 
Chief resigns.'' In an open letter to the Secretary of 
Agriculture, it details that a woman who has been serving for 
22 years in the U.S. Forest Service has resigned because, in 
her words, she says, ``Forest Service leaders have failed to 
demonstrate moral courage by adhering to high ethical standards 
and choosing the difficult right over the easy wrong that 
helped me in determining my decision to resign.''
    You have indicated that things have changed within the 
Service. This is obviously a current event here. The question 
to you is, why is this continuing to happen? Have the reforms 
that you have just briefly touched on not yet been put in 
place? What is causing a continual deterioration within the 
workforce there?
    Ms. Christiansen. Thank you, Madam Chairman.
    I'm unable to speak, you know, directly about individual 
cases and I assure you, things of the past we are looking at 
closely and we are learning and we are making corrections at 
every turn of the way.
    What we have done in the last year is I have stood up a 
Work Environment and Performance Office with our most senior 
executive overseeing this work. This is a best practice in both 
private and government sectors. So we are committed to results. 
And it's a three-pronged approach: first about the 
accountability, second is about prevention, and third is about 
a sustainable change in behavior in agency culture.
    Many things we're doing we're continuing to listen to our 
employees. We're revising our End Harassment Policy, we are 
holding supervisors accountable that do not report within the 
24-hour period, we've increased our resources for follow-up and 
investigations, and we have aggressively addressed many 
incidents of harassments with 23 removals, 5 demotions, 42 
suspensions and 166 other actions. We've added case managers 
and we're working with OIG to identify and implement the best 
practices for measuring success, because all agencies really 
want to know what are the true measurements of success.
    In the prevention, we've instituted a policy of no alcohol 
in any Forest Service seasonal housing starting this field 
season; we've increased our Conflict Management and Prevention 
Center resources; and, we're delivering bystander intervention 
training. When our employees spoke to us, they said we need 
better skills at how we see them and when, early, if someone is 
feeling offended or when they feel there's inappropriate 
behavior.
    And we're improving organizational behavior and culture by 
having a method to stop the silence. If you can't talk about 
it, then we can't fix it. And we are asking folks to be 
empowered, to listen and learn, and have incorporated employee 
advisor groups at the national level and across the service.
    We've incorporated our first ever Code of Conduct and 
agency core values. This is in every supervisor's performance 
standard and they will be held accountable on how we are 
reshaping the culture of the Forest Service.
    The Chairman. Well, Chief, I appreciate what you have 
detailed. I am concerned though, that even given the many steps 
that it is clear you have put in place, when you have a 22-year 
veteran, someone who has achieved a position as a Battalion 
Chief, when you have someone like that saying, enough is not 
being done, we still have a failure within your system. We 
still have a level of harassment, of assault, that is clearly 
not acceptable.
    I would do more than urge you. As a Chairman of a Committee 
and as an American, I would tell you making sure that we have 
good policies in place doesn't make a difference on the ground 
unless and until that culture has changed. I don't want to pin 
everything just on one story that has appeared today, but I 
think you know that internally the agency remains troubled.
    So put the policies in place as you are, but when you say 
there is accountability, there has to be strict accountability 
because you cannot continue to have these levels of wrongdoing 
continuing within your agency.
    Ms. Christiansen. We have more to do, Senator. And I am 
absolutely committed with urgency.
    The Chairman. Thank you.
    Senator Manchin.
    Senator Manchin. Ms. Christiansen, I want to follow up on 
the Secure Rural Schools funding. In my opening statement I 
touched on that.
    Pocahontas County is one of our rural counties, and they 
depend on it. They have lost 14 staff members already. But on 
top of that, we have to work through the budget process this 
year. They have not gotten their payments from last year, and 
they are two months behind on that. Is that going to be coming 
out quickly? They called and asked me about their payments. Can 
you all speak to that?
    Ms. Christiansen. Senator, I'm very pleased. We worked 
closely with Treasury and OMB and we, just this morning, we 
have learned we have all the clearance and those payments will 
be distributed by April 15th.
    Senator Manchin. April 15th, that is good. We will call 
them today and tell them to not lay anybody else off.
    Deferred maintenance funding is a big thing, and I 
understand that the Forest Service has a $5.5 billion backlog 
in deferred maintenance in the last year. The Office of 
Inspector General (OIG) reviewed your deferred maintenance. 
After that review, the IG recommended the Forest Service 
develop an integrated strategy to address the maintenance 
backlog including the long-term vision for the agency's 
infrastructure portfolio. When do you envision that being 
finished and developing your strategy? And will you share it 
with us, here in Congress, as soon as that is done?
    Ms. Christiansen. Absolutely, Senator.
    It is near completion. It's working its way through 
clearance, and it will be here to Congress this spring for 
sure.
    Senator Manchin. If the funding is approved and the money 
needed is appropriated, can you share with me what your highest 
priorities would be in the maintenance area that you have seen 
so far or has been brought to your attention?
    Ms. Christiansen. We have multiple priorities.
    We would first look at improving forest conditions, the 
access we need to get the work done on the ground. We're 
reducing fire risk and improving the health of the forest and 
the access we need to continue our fire response operations.
    With that said, Senator, as you have mentioned, recreation 
is a large part of our economy so we will have to balance the 
need from the deferred part of our recreation infrastructure as 
well. We'd be glad to work with you as we set those priorities.
    Senator Manchin. I want to segue into that also, as far as 
the backlog of permits for business-related activities, 
including recreational use. Without that, I mean, they are 
done. They can't book. They can't plan for next year at all.
    Those are real high priorities for us, because it keeps the 
economy going as we're fixing our other problems. I don't know 
if you all have raised them to that level?
    Ms. Christiansen. Special use permits for recreation?
    Senator Manchin. Right.
    Ms. Christiansen. Yes, sir. That's one of our three marquee 
reform processes. It's modernizing our special use permits, 
both on the infrastructure side, our communication side, and 
other uses and on the recreation side.
    We have over 71,000 special use permits and there's more 
demand. Those 71,000 need to be renewed. And so, we are going 
to an electronic basis. We are clustering across forests so if 
you're an outfitter and guide you don't need to go, if you 
operate on four different national forests, you don't need to 
go four times and get it renewed.
    Senator Manchin. Right.
    Ms. Christiansen. You can get a permit once.
    And we are standing up, we call them Strike Teams because 
we get really focused, concentrated work done, along with 
Centers of Excellence.
    That's just a few highlights of our commitment to special 
use permits.
    Senator Manchin. My final question will be on sportsmen's 
access, the access of sportsmen and sportswomen to all the 
lands that we have. Basically they sometimes have no access to 
them. How do you intend to address that?
    Ms. Christiansen. Access is always a high priority for us. 
These are public lands for the public to enjoy, that's our 
commitment.
    Certainly, we are constrained in some areas where there is 
private ownership and at times where we have limited funds to 
safely maintain our roads. So we're always happy, very eager to 
work with Congress on improving our infrastructure on national 
forests and working with partners where we can get easements 
and other access.
    Senator Manchin. Here is the one thing. Basically, last 
month, the Executive Director of the Theodore Roosevelt 
Conservation Partnership testified before the Committee to 
discuss that very issue. He described the easements the Forest 
Service holds on lands abutting national forests and how the 
majority of these have not been digitized, making it harder for 
our sportsmen and sportswomen to identify where they can have 
access or they are not permitted.
    Do you have an idea how that could be digitized for them so 
that the access they would have would be ensured? They started 
the service of the paperwork and have just been overwhelmed.
    Ms. Christiansen. We'd be happy to work with you and our 
partners on more contemporary ways----
    Senator Manchin. You sound like you are going to be 
digitizing quite a bit of your operations and this would be 
something that is very important for the sportsmen so they know 
where they can go.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Welcome, Chief Christiansen. I very much appreciate the 
Forest Service's continued prioritization of hazardous fuels 
reduction and a focus to actively, maybe I should say 
proactively, treat our federal forest lands.
    While I realize Congress has taken some steps in the recent 
Farm bills and some spending bills, there is a lot more work to 
be done. In fact, just last month, the Governor of California 
declared a state of emergency waiving environmental laws and 
regulations to get projects off the ground in his state in 
hopes to avoid another fire season like last year's.
    I certainly agree. We are in a state of emergency. I found 
it striking to see the executive order that came from the 
Governor of California's office. It says here that, ``It is 
hereby ordered that state statutes, rules, regulations, and 
requirements are hereby suspended to the extent they apply to 
the priority fuels reduction projects . . . .''
    And here is an example of when you wait too long to be 
proactive you end up in emergency and a crisis situation. If 
the State of California can take such aggressive action, we 
should be able to make significantly more progress here in 
Congress.
    In the past, under my leadership, Congress has acted to 
clarify U.S. Forest Service consultation requirements under the 
ESA to shield projects from what President Obama, himself, 
called ``disastrous,'' that Cottonwood decision.
    In fact, recently, three projects in Montana have been 
enjoined based on a new information claim and the ESA holding 
up at least 35 million board feet for harvest that would 
improve wildlife habitat and restore our forests.
    In fact, of these three projects, one of them is the North 
Hebgen Project. The North Hebgen Project was enjoined the day 
before logging was to begin. The purpose, and I quote, the 
purpose of the project was ``to prevent intense wildfire and 
promote forest health.'' This is ridiculous. What is going on 
here is just exacerbating paperwork. It is requiring this new 
information published on a species. It is doing nothing, you 
know, to really protect the species.
    Chief Christiansen, is this disastrous ruling, this 
Cottonwood decision, still impacting your agency's operations, 
in particular, the new information piece?
    Ms. Christiansen. Senator Daines, thank you for all of your 
work to address a large part of the Cottonwood decision from 
the Ninth Circuit Court. It now gives us more certainty on 
getting our work done. However, you're absolutely right, the 
new information trigger is not yet addressed and it is 
affecting our work on the ground, particularly in your state. 
And we're more than happy to work with you and the Committee to 
fill the additional understanding of how we could close this 
gap.
    Senator Daines. Thank you, I appreciate that. We have to 
take that Cottonwood decision all the way to the end here, 
especially for this new information piece.
    Recently Secretary Purdue joined Acting Secretary Bernhardt 
to urge Vice President Pence to support legislative proposals 
to authorize a suite of landscape-based, categorical exclusions 
to reduce red tape.
    California says it is when a state of emergency exists. I 
would agree. We must act quickly and these new authorities 
proposed will help us do just that.
    I also understand your agency has review underway to 
streamline the NEPA through administrative action. My question 
is what is the latest on the Forest Service efforts to 
streamline NEPA? When will updated guidance be issued? And how 
would new categorical exclusion authorities help your agency 
get more work done on the ground in hopes to help combat 
wildfire?
    Ms. Christiansen. You bet.
    In regards to our streamlining NEPA, let me be clear, we 
are committed to be science-based, data driven, but to work 
through, you know, undue processes that have layered on over 
the years.
    So we've been working through an interagency review process 
and plan to release the proposed rule for public comment in the 
coming weeks, depending on OMB approval. So our expected 
timeline after we go through tribal consultation and other 
outreach is to issue a final rule in May of next year and we 
would issue guidance to the field shortly thereafter.
    Senator Daines. Last question.
    I sponsored legislation to combat obstructive litigation by 
creating a pilot arbitration authority and this is a pilot, in 
some states, a limited number of states, which was reported out 
of this Committee last Congress with bipartisan support.
    Would you be open to using this new authority?
    Ms. Christiansen. Absolutely, we'd be open to testing this 
arbitration concept with you, with this Committee.
    Senator Daines. Thank you, Chief Christiansen.
    The Chairman. Thank you, Senator Daines.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Chief Christiansen, thank you for your work.
    I wanted to ask if you, I am assuming you have seen the 
National Interagency Fire Center Wildland Fire Potential 
Outlook. These things are always so instructive to me, because 
they say exactly where we should be looking for this fire 
season.
    Unfortunately, as I look at this information, the thing 
that I see, particularly for June and July, is right across the 
State of Washington. I can tell you we already felt like we had 
a bad fire season last year. Now we might not have been the 
epicenter of the fire as much as Oregon was, but we certainly 
had a lot of impact. So this is concerning to me that we are 
projected to be above normal, as it relates to the fire season.
    Ms. Christiansen. Yes, Senator Cantwell, particularly the 
concerns on the western part of the state, that is very unusual 
this early, as you know. I happen to know from reports from 
Washington's Department of Natural Resources, they've had well 
over 60 large fires and the majority of those have been in 
western Washington. So, that's quite unusual. We've had, as you 
know, drought conditions this winter.
    Senator Cantwell. Yes.
    No, you get my attention any time the map basically targets 
western Washington and Southeast Alaska and basically say that 
in early June we could be above normal for fire season. That is 
not normal. Okay? This is challenging.
    That brings me to my point which is we worked very hard, 
collaboratively, to try to give money for what we think is fuel 
reduction, $649 million in the Omnibus. We want to make sure 
that money is being used as best as possible at this moment. 
Can you basically assure me that that is going to happen, that 
you are going to spend fuel reduction money that Congress has 
given you or are we going to just keep setting it aside as we 
previously have and just wait to spend it on the fires 
themselves?
    Ms. Christiansen. No, Senator. We are not going to wait, 
and I can assure you we are going to invest those funds in the 
most critical places with the highest risk.
    As you well know, that is what the framework about shared 
stewardship is all about, about right work, right place, right 
time. And to be quite frank, it's not just the measure of acres 
treated because some of those acres are the harder acres to 
treat, higher cost, but they are the ones that affect 
communities most at risk for whatever.
    So we are working very closely, and we'll be soon signing a 
shared stewardship agreement in Washington State about 
prioritizing fuel treatment across landscapes and make the best 
investment.
    Senator Cantwell. So nothing in the ignoring of this in the 
President's budget prohibits you from following up on Congress' 
ability to give you that money and for you to use it?
    Ms. Christiansen. We will use whatever resources are given 
to the agency, Senator.
    As you know in preparing this budget, the 2020 budget, we 
followed the instruction of the Administration about reducing 
at whole by five percent. We made some tough choices and forest 
treatments to improve forest conditions and hazardous fuels was 
the highest priority. So there is a slight uptick in our 
request.
    Now, as you know, that was--that meant other programs were 
reduced.
    Senator Cantwell. I would definitely, respectfully, request 
a meeting to discuss this fire season and what we can 
specifically be doing since the Pacific Northwest in June and 
July is predicted to have above normal fire. We have not even 
seen what August would look like.
    Ms. Christiansen. Right.
    Senator Cantwell. But we definitely want to get ahead of 
this, definitely want to find out our progress on this water 
scooper issue as well. And I know we have tried to give you the 
flexibility so that you can engage on this.
    I think the firefighting technology that we were able to 
pass in the 2019 public lands package to do thermal awareness 
on fire starts, I just want to understand from you what we can 
do to use that now so that we can have a quicker response if we 
are going to see this elevated risk in western Washington. What 
we can do to immediately use thermal technology to identify and 
help, maybe, contain these fires.
    Ms. Christiansen. We'd be happy, pleased to come talk to 
you.
    Senator Cantwell. Great, thank you.
    Thank you, Madam Chair. Thank you.
    The Chairman. Senator Cantwell, just for your information 
and that of the other members of the Committee, we do 
anticipate having our annual fire outlook hearing for the 
Committee within the next month or so. That is always an 
important discussion to have ahead of the season which seems to 
be getting earlier every year.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Welcome, and it is good to actually have you here today as 
the permanent Chief since last year you were here in the 
capacity of acting.
    Last year brought many challenges, also some new 
opportunities. I know today we are mostly talking about dangers 
of the fire season ahead, but we can't forget the important 
role that active forest management plays in local economies and 
in environmental health.
    We had, in Wyoming, the Roosevelt Fire. It caused 
significant damage in the Hoback Ranches Community in Wyoming 
last year when it burned more than 60,000 acres and destroyed 
more than 50 homes. I know you're familiar with this.
    Unfortunately, the community is now bracing for even more 
damage during the spring runoff as the snow melts. The local 
conservation districts in one of your sister agencies, the 
Natural Resources Conservation Service (NRCS), they are waiting 
for the snow to melt just enough so they can begin the work 
that is necessary on stabilizing the banks in the area. The 
work is critical to prevent huge loss of topsoil. It prevents 
contamination of the downstream watersheds to prevent damage to 
the roads and the remaining infrastructure.
    So my question to you is, how do you coordinate with the 
NRCS--with that group, on projects like this now that there are 
basically two different undersecretaries overseeing work?
    Ms. Christiansen. Yes, thank you, Senator, that's a really 
great question.
    I can say there's absolutely no difference with two 
different undersecretaries. I meet with NRCS' Chief Lohr 
regularly. We have committed to continue a very successful 
practice of doing work up front across the federal ownership 
and on to state lands in what we call a Joint Chiefs 
Restoration Program where good projects compete across the 
nation, and we fund and we catalyze these larger landscape 
efforts.
    We are doing the same on these unfortunate recovery 
efforts. A multiparty effort has come together there around the 
Bridger-Teton with the Sublette Conservation District and NRCS 
and a collaborative group to help permittees and the adjacent 
private ranchers to navigate the challenges and rebuilding the 
grazing of the structure. So yes, we all have our lines of 
authority and our funding sources that we have to pay attention 
to, but we try to do that behind the scenes and coordinate 
across these government entities and really listen to the 
voices of these collaborative groups come together. And I've 
been tracking this effort, and I'm quite pleased. So I can 
assure you, NRCS and the U.S. Forest Service are really 
continuing to improve on our working relationship.
    Senator Barrasso. Thank you.
    The other thing, at the end of last December President 
Trump issued his Executive Order 13855 which was entitled, 
``Promoting Active Management of America's Forests, Rangelands 
and Other Federal Lands To Improve Conditions and Reduce 
Wildfire Risk.'' The order directs the Secretaries of 
Agriculture and Interior to ``agree on a set of shared 
priorities with Federal land managers, States, tribes, and 
other landowners to manage fire risk across landscapes.'' To 
achieve this directive, the order instructs the Secretaries to 
undertake a series of cooperative actions. So, Chief 
Christiansen, what work has the Forest Service completed so far 
and then what are your next steps?
    Ms. Christiansen. Thank you, Senator.
    What you really described is what we call shared 
stewardship where we are not the supremacy on the federal lands 
in the state and the state and the local voices matter and that 
we need to work together with our sister land management 
agencies and Interior, our state partners and our local 
partners to really prioritize the values and outcomes that are 
most important so that we are going to invest together in the 
highest priority places.
    That Executive Order also calls on the Federal Government 
across the land management and the regulatory agencies to 
really work closely about effective ways to have sound, 
environmental analysis, complying with the Endangered Species 
Act and allowing work to get done on the ground.
    Senator Barrasso. Final question.
    Over the last two years the Forest Service sought several 
opportunities to consolidate staffing levels or co-locate with 
other U.S. Department of Agriculture land management agencies 
within the State of Wyoming. I appreciate your commitment to 
taking care of the resources that you have and spending money 
where it's most useful. At the same time, I know you understand 
the need to maintain accessibility for the public to best serve 
the needs of the specific forest.
    As part of that infrastructure strategy, have you worked 
with the GSA, the General Services Administration, to find 
opportunities where we can streamline costs, like co-locating, 
with other USDA agencies across the board or is it just unique 
to Wyoming?
    Ms. Christiansen. Oh, it's across the board, Senator.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Let's go to Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Chief, welcome. It is good to see you again.
    First of all, let me say, my colleagues may not know this 
but, aside from the BLM, the Forest Service is a great partner 
of Nevada. As you well know, the Humboldt-Toiyabe National 
Forest is probably one of the, it is the largest forest in the 
Lower 48 and it is located in Nevada.
    So the partnership we have with you is fantastic, and I 
want to first just commend the Forest Service for your work in 
Nevada in regards to the Ruby Mountains in Elko as well. On 
March 14th the Humboldt-Toiyabe National Forest released the 
Ruby Mountains oil and gas lease and availability analysis 
draft decision stating that the Ruby Mountains is not an 
appropriate place for oil and gas leasing. I could not agree 
more. Nevadans could not agree more as well. So thank you for 
working with us on that. It is one of the reasons why I have 
also introduced S. 258, the Ruby Mountains Protection Act, and 
I just appreciate that opportunity to work with you.
    You know, I just had an opportunity to work and talk with 
some of the folks from Nevada and the fire season in Nevada is 
just as bad, particularly in northern Nevada. It is the number 
one issue I hear in our rural communities.
    I want to just tee off on some of the conversation you just 
had with Senator Cantwell. I know that this budget proposes a 
22 percent decrease for overall wildfire management which is a 
concern, I think, for all of us is what I am seeing and 
hearing. And so, correct me if I am wrong. Let me ask you this, 
there are two pieces of the budget though that are key, right? 
It is the $2 billion we put in to start in 2020 for 
firefighting that you will have access to and be able to 
address, to address the firefighting, the costs, mainly the 
Western states which is what we are seeing. The other thing is, 
if I remember correctly, there was $649 million that was freed 
up for the Forest Service to reinvest in programs because so 
many have seen reductions over the last 20 years. But that $649 
million was not reinvested, it went back into the Treasury, is 
that correct?
    Ms. Christiansen. So, Senator, let me make sure I'm clear.
    Yes, there's a reduction in the amount of fire request 
because we have additional, because of the fire funding fix 
taking effect we'll have ability to draw from those additional 
funds in the disaster relief account.
    In regards to what was freed up, let me just say, we 
constructed this budget based on Administration guidance of 
reducing by five percent the 2019 budget request.
    Senator Cortez Masto. Okay and was that something that, I 
am assuming, your agency, all agencies were asked to do that?
    Ms. Christiansen. That's correct, Senator.
    Senator Cortez Masto. And that was a five percent reduction 
across the board for all agencies?
    Ms. Christiansen. We didn't take it across the board. We 
had to take five percent of our 2019 budget request.
    Senator Cortez Masto. Okay.
    Ms. Christiansen. We chose to keep level with a slight 
increase the work to improve forest conditions and other 
program areas then took a larger reduction.
    Senator Cortez Masto. So that decision on how you were 
going to reduce by five percent was left to your discretion? Is 
that right?
    Ms. Christiansen. It's a process with, certainly with the 
USDA and the OMB.
    Senator Cortez Masto. Okay.
    I would like the opportunity at some point in time and I 
know we're going to have a hearing on this, but to invite you 
and some of your incredible staff that we already work with in 
the State of Nevada to sit down with some of our stakeholders 
as we talk about firefighting and fuel suppression and 
management this coming year. So I invite you to do that. Would 
you be willing to do that with us?
    Ms. Christiansen. Absolutely, Senator. I'd be happy to do 
that.
    Senator Cortez Masto. Thank you.
    Let me also just echo the concern that the Chairman had 
with respect to sexual harassment and the numbers that we are 
seeing, unfortunately.
    Here is my concern as well, and I so appreciate your 
conversation and things that you are doing to make change, and 
I think we had this conversation last year when you came before 
us. But I also know in 2018, of the 193 workplace misconduct 
complaints that were filed within the agency, 116 of those--
that is 60 percent--were categorized as sexual harassment. 
Clearly, something is going on.
    To the extent that you are willing to at least share with 
us and work with us how you are changing that culture, what you 
are doing in policies and guidelines that you are implementing 
to make sure that individuals are free from sexual harassment 
and have the comfort to know that they can come forward and 
safely, somebody is going to be held accountable and there is 
an investigation. I would appreciate what you can share with us 
as you move through that and make that change.
    Ms. Christiansen. Be happy to, Senator.
    My team does come up regularly and brief this Committee 
staff, and I'd be happy to personally come up and brief you.
    Senator Cortez Masto. Thank you, I appreciate it. Thank you 
for being here.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator McSally.
    Senator McSally. Thank you, Madam Chair.
    Chief Christiansen, welcome, thanks for being here.
    As you know from your time in Arizona, our state is home to 
over nine million acres that are managed by the U.S. Forest 
Service to include six national forests. These ecosystems are 
subject to about 100 years of mismanagement, suffocating under 
too many trees. Where we once had 10 to 25 trees per acre, we 
now have hundreds. These unhealthy conditions have greatly 
increased the risk and the severity of wildfires. As you know, 
this is not just the destruction, the risk to lives, 
livelihood, and the economy, but also the water supply. We have 
to shift gears and see the bigger picture.
    First of all, I would like to invite you to Arizona so I 
could host you there. I know you have been there many times, 
but I would love to host you there to see some of this 
firsthand.
    I am proud to say that Arizona is home to one of the most 
innovative approaches to forest management in the country, the 
Four Forest Restoration Initiative, or 4FRI. 4FRI is a 
collaborative effort to thin a million acres across four of 
Arizona's national forests. Under Phase One, which was 
implemented in 2012, the Forest Service contract was with a 
vendor known as Good Earth Power to thin 300,000 acres over ten 
years. To date, progress under Phase One had been 
disappointing, to say the least, with barely 11,000 acres 
thinned. Now the Forest Service is developing a request for 
proposal, RFP, for Phase Two which could run as large as 
500,000 acres. We hope that you will all learn from the 
mistakes made in Phase One and award a contract that will 
expeditiously remove the low value timber from our fire-prone 
forests. I recently sent a letter to you with Senator Sinema 
encouraging you to complete the work on the Phase Two RFP and 
look forward to receiving a response. Could you tell me today 
when the Phase Two RFP will be released so that we can get 
moving on this project?
    Ms. Christiansen. Yes, thank you for that great summary, 
Senator McSally.
    I'll just go back for a touch point. When I was State 
Forester of the great State of Arizona, I represented the 
Governor to actually get the 4FRI idea started. So I am deeply 
committed to the innovations. And it can't be business as usual 
if we're going to get in front of the big needs that we need to 
do to create better conditions on the land.
    So you're absolutely right. We had a lot of learning. This 
is big scale. This is more cleared NEPA acreage than we've ever 
had and attracting infrastructure of the private sector is, 
I'll just say, tricky.
    Thanks to Congress we now have the 20-year authority for 
stewardship agreements and, of course, that's what we are 
setting up for this RFP. We've worked through the federal 
acquisition regulation protocols and we now have the ability to 
have both the Salt River Project, the Bureau of Reclamation, 
and the Arizona Commerce Authority. We're still talking very 
closely with Arizona Forestry and Fire about having a seat at 
the table in evaluating this RFP because we know we need big 
thinkers. We need to do this right, and we can't fail again.
    Senator McSally. Great.
    Ms. Christiansen. We need to have that----
    Senator McSally. Do we have a timeline?
    Ms. Christiansen. Yes.
    Senator McSally. Roughly?
    Ms. Christiansen. It will be out by June and then we hope 
to have the evaluations done in just as quick, a couple of 
months after that, if possible.
    Senator McSally. Okay.
    One of the things that was brought to our attention is how 
long the non-disclosure agreements are taking. Is that one of 
the holdups between--getting it out?
    Ms. Christiansen. That's added a little bit of time because 
when you're breaking new ground these are all new things but we 
are, as we prioritize this work, this is a number one priority 
for the agency and for that region.
    Senator McSally. Well, good, thanks. June, we will be 
looking forward to that.
    Ms. Christiansen. You bet.
    Senator McSally. Also in Arizona, as you know, we have a 
lot of local governments and non-profits that are partnering in 
an amazing way. I mean, I was up in Flagstaff. They hosted me 
up there in the snow and the mud to really see firsthand this 
level of collaboration.
    They have identified some areas in the implementation of a 
forest thinning project that they think really needs to be 
adjusted, specifically for Region 3 policies, and ways of doing 
business that are more focused on the large timber sales. For 
example, Region 3 requires Arizona partners to brand or stamp 
all trees to include the low value trees. Again, this was meant 
to make sure that, you know, large timber is not stolen or 
illegally exported, but nobody is stealing the little stuff. So 
that seems like it is very cumbersome.
    Also, requiring Arizona partners to weigh trucks with every 
load of the low value timber. Again, this process is probably 
geared more toward high value. I understand in Washington State 
where you are from, timber operators only have to weigh one out 
of ten trucks. There is another one about how they have to 
advertise the wood for auction. Again, these just seem like 
barriers that don't make sense for the lower value stuff.
    Can we work together to try to figure out how to remove 
these barriers so we can move forward in a productive way?
    Ms. Christiansen. You bet.
    I know that I often say, we have a new game and we have an 
old playbook. And getting the playbook updated is sometimes a 
little difficult, and I'd be happy to work with you and look 
into this.
    Senator McSally. Alright, fantastic, I appreciate it.
    The Chairman. Senator Heinrich, your timing is impeccable, 
if you would care to ask Chief Christiansen some questions.
    Senator Heinrich. I will try to get organized here in short 
order. Thank you.
    We have a couple of Collaborative Forest Landscape 
Restoration Program (CFLRP) projects in New Mexico in both the 
Jemez Mountains and the Zuni Mountains. Congress just extended 
this program for five more years. We actually doubled its 
authorized funding in the Farm bill in December. And yet, the 
President's budget eliminates all funding for this program 
which has been a great example of really getting treatment into 
the forests in a meaningful way and creating jobs in local 
communities. Why is the Forest Service proposing to end this 
program that has been so well received really across the 
political spectrum?
    Ms. Christiansen. Thank you, Senator.
    I visited both those projects in New Mexico, and I do agree 
the collaborative work is really, is paying off well.
    We are not proposing to eliminate the practice of 
collaborative forest landscape restoration. We want this to be 
the way that we do business in the future.
    In regards to the specific funding to CFLRP, as I did say 
to the Committee earlier, we had to make some very tough 
choices about this budget submission. We followed the 
Administration's guidance on reducing by five percent from our 
2019 budget submission, and we did put as the top priority, 
improving conditions of America's forests which had an increase 
in our hazardous fuels and our vegetation management, forest 
product line items. So we would anticipate continuing the 
practice of CFLRP even though there would not be a specific 
line item allocated to those projects directly.
    Senator Heinrich. My concern there is that we build this 
capacity and then we come along and we have a budget year like 
this one and if things get funded at zero then we lose that 
capacity. Our biggest risk when it comes to treatment of our 
forests is to permanently lose the capacity. You could lose the 
workforce and the mill in one bad budget.
    And so, I just think it is, with all the rhetoric around 
the need to do more vegetation treatment in our forests, a 
poorly thought through budget line item which can have a 
permanent and lasting impact in a way that I really don't think 
is the intention of this Administration or at least I certainly 
hope not.
    One of the other places where we have heard great rhetoric 
but have terrible budget numbers is the Land and Water 
Conservation Fund. I have, you know, LWCF was used twice in the 
Gila National Forest to open up public access in the last few 
years. And I continually hear from sportsmen and sportswomen 
around the country about how important this program is for 
access, but if we have what is effectively a zero year, we are 
losing out on that.
    We just had a big, huge ceremony at the White House, 
permanently reauthorizing the program. How do you defend a 
budget with effectively no real dollars for LWCF?
    Ms. Christiansen. Senator, I hear your concern. It was very 
difficult for us to make the choices and tradeoffs in this 
budget submission.
    We do prioritize when Congress asks us, and we will 
continue to submit the LWCF priority list which we do 
prioritize for access without those funds. We will work with 
partners to see where we can get critical access and, quite 
frankly, maintain the existing lands that are in our care that 
we, you know, we have resource constraints just to take care of 
those lands.
    Senator Heinrich. We certainly have resource constraints, 
but this is, as you know, LWCF is not funded by taxpayer 
dollars. And what it tells me when we get a budget like this is 
that access is not a priority and budget documents are moral 
documents.
    We finally fixed the way we budget for wildfires, and yet 
the service reflects none of the additional resources that fix 
made available to you. Why didn't you apply the funding freed 
up by the wildfire funding fix to shore up the programs that 
have been so negatively impacted by fire borrowing in the last 
decade?
    Ms. Christiansen. Yeah, we very much appreciate Congress' 
support of the fire funding fix which will stabilize our 
operations by, you know, nearly reducing the chance of any fire 
borrowing in the future.
    We did not ask for the additional resources freed up 
because, again, we followed the Administration's guidance of a 
five percent reduction in our budget by prioritizing the 
critical prevention and hazardous fuels reduction work that 
we're committed to.
    Senator Heinrich. I would just point out that once again we 
are giving the service the tools, but you are not using the 
tools that we have given you.
    Ms. Christiansen. I'd be happy to work with you, Senator.
    The Chairman. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Two quick questions, Chief Christiansen.
    I think I mentioned to you that success has been keeping 
logging infrastructure in the small town of John Day, Oregon, 
alive. We have worked closely with you with respect to the 
stewardship issue. I remember tracking Chief Tidwell down when 
he was outside the United States in order to put this together.
    Local and regional staff still seem to be independently 
rewriting the terms of the contract, and we are not getting the 
value of the collaboration that long-term stewardship is really 
all about. They mean well. I have been talking to them. I want 
it understood that we appreciate their sincerity, but we have a 
situation where the contractor goes out and invests in crews 
and specialty equipment and then the agency says nope, we are 
not going to do that and the like.
    And what we really need because this has been going on for 
years and this, as I mentioned to you, this is the ballgame 
with respect to forestry in rural Oregon. I mean, it is a mill. 
It is an ongoing concern. It has been a huge shot in the arm to 
the economy. I want it to be a model throughout rural Oregon 
and throughout the country.
    My question to you is will you look into this situation and 
get back to me, let's pick a reasonable period of time, like 
say a couple of weeks and tell me what do we need to do to get 
this ironed out? If you need any statutory changes with respect 
to stewardship, the Chair and I have worked on these issues for 
years. I would be happy to entertain that. Can you look into 
the situation in John Day and then tell us if we need any 
statutory changes because this is a real lifeline for the rural 
folks that I represent?
    I am going to be having town meetings out that way and I 
want to say that, like you have so often, you have really come 
through in terms of responsiveness.
    Ms. Christiansen. Absolutely, Senator. We have committed 
and prioritized our resources for the reasons, to that Malheur 
area in John Day, and we want it to be as successful as you do. 
So I would absolutely be committed to look into this and we 
appreciate any of your help, should we need it.
    Senator Wyden. Is two weeks reasonable to get a response?
    Ms. Christiansen. I believe that's reasonable.
    Senator Wyden. Terrific.
    Okay, let's go to Secure Rural Schools.
    Well, one of the things I am most proud of, and the Chair 
and I have talked about it, is we wrote Secure Rural Schools in 
this room. At that time, people used to say it was the Craig-
Wyden bill in Idaho and in Oregon they would say it was the 
Wyden-Craig bill. The point was everybody on this Committee, 
both sides of the aisle, chipped in and it has really been a 
lifeline. Now we understand that there is so much hurt in rural 
America. You look at the West, for example. You can go right 
down, you know, the border, the cities are really doing well, 
whether it is Seattle or Portland, San Francisco or Los 
Angeles, but there is a lot of hurt in the rural communities.
    One of the concrete ways you can at least help mitigate 
some of that hurt, we also want to get logging up in a 
sustainable way and quit fire borrowing and you are 
accelerating cleaning up the backlog in terms of projects that 
need to be addressed quickly, but we also need the safety net.
    And so, in March in response to a letter, I stated the 
Forest Service said it is implementing a new modernized timber 
sale financial system that requires additional verification by 
Forest Service staff. I am going to hear from my rural counties 
here in a couple of days, gosh, we really want to know what is 
going on. I know you announced that SRS money will be 
distributed by April 15. I am pleased that we are at least 
getting going on that. But what folks in rural Oregon are going 
to want to know is what will the implementation of the new 
modernized timber sale financial system mean in terms of the 
counties getting their SRS payments?
    Ms. Christiansen. Thank you, Senator.
    Yes, we did have a new system. We needed to take extra 
steps to make sure that the conversion to the Secure Rural 
School payments were accurate with the conversion of this new 
system.
    We have gone through that. We are assured that they will, 
the payments will be made as they should be and I am pleased to 
say, I said it earlier, I think you were out, that I got 
verification this morning that we will make those payments on 
April 15th.
    Senator Wyden. Great.
    My time is up, and the Chair and I are both going to run 
out for the vote.
    I can also tell folks at home, we are going to ask some of 
these rural counties, I can tell them that not only are the 
payments going to go out on April 15th, but we have now got the 
system in place so they don't have to worry going forward.
    Ms. Christiansen. That's correct, Senator.
    Senator Wyden. That will be welcome. I look forward to 
working with you and just want people to know I appreciate your 
professionalism.
    Ms. Christiansen. Thank you.
    Senator Wyden. Thank you.
    The Chairman. Thank you, Senator Wyden.
    You have outlined the angst that comes every year from 
these counties, from these small communities that are so 
greatly impacted when they don't know--are they going to be 
getting their SRS payments? And so, allowing for some level of 
predictability here is so important.
    I think that there is still much more that needs to be 
done, and I know that you have committed to working on that 
through your position there in Finance.
    But again, when you are a small community in the Tongass, 
whether you are Petersburg or Craig or Yakutat, it is pretty 
tough to find other taxable bases to sustain your community, 
your schools, your roads. So this is something that we want to 
keep working on, so I appreciate that.
    And in that vein, Chief, as Senator Wyden mentioned, we 
have a vote that just started, but I want to ask about a couple 
Alaska issues that are clearly getting the attention of folks 
back home.
    It was last year at this budget hearing we talked about 
getting the cut up on the Tongass. We discussed some of the 
changes that we discovered in the 2016 land plan, and it was at 
that time when we were discussing what is possible, what can we 
expect? The Service said that we could expect to meet a 50 
million board foot target in '18. Just last week I got the 
performance report from Region 10 that shows that just nine 
million board feet of timber was sold in '18. Once again we 
come to the hearing, we say we are going to work with you. We 
are going to get it up. We are going to see the impact to these 
communities. So here we are. Basically, what happened? And what 
is the plan here to turn around the timber program there on the 
Tongass?
    Ms. Christiansen. Senator, I really understand your 
concern, and I share it. This is serious.
    The Chairman. Nine million board feet in the nation's 
largest national forest.
    Ms. Christiansen. Yes, I understand, Senator. I share your 
concern.
    And there are challenges operating in Southeast Alaska----
    The Chairman. We know, yes.
    Ms. Christiansen. ----but that is still not a reason not to 
improve the performance.
    You know that I have committed that we need to do better. 
We're building back our skills. We're taking a different 
approach on the landscape, taking a large landscape approach to 
clearing our environmental analysis and decision-making. In 
mid-March we did sign a decision on the Prince of Wales Large 
Landscape Assessment.
    The Chairman. That was good. I do appreciate that. I do 
hope that we will be able to expect more significant timber 
opportunities there on Prince of Wales with that Landscape 
Assessment.
    Ms. Christiansen. Yes, we--15 to 25 million board feet 
annually will be available to come off, it's cleared, off of 
that large landscape assessment and this summer we'll be in the 
final throes of the Central Tongass landscape-scale assessment 
and that will add an additional 15 to 25 million from that 
landscape.
    In addition, we're really leveraging with the State of 
Alaska, the Good Neighbor Agreements, where they can come in 
and construct sales that, they've had a few challenges as well. 
But we've been able to get two sales sold with the Good 
Neighbor Agreement.
    And as you know for a bridge, we worked very hard on the 
Mental Health Trust, Phase I, so that the Viking Mill will have 
the supply of old growth timber it needs and we are working 
with the All Landowners Group in Southeast Alaska to 
collectively deal with these challenges.
    Columbia Helicopter has----
    The Chairman. No longer.
    Ms. Christiansen. ----left Alaska. Twenty percent of our 
timber target for 2019 was to be helicopter logging. So we have 
to work fast and aggressively with these other landowners to 
track that resource.
    The Chairman. And Chief, that is where I have such 
frustration. We knew last summer when I was up there, we were 
told ``we're out of here.'' Everybody that was in the region 
knew and understood that. And yet, we were still planning that 
that was how we would harvest when the folks that are on the 
ground knew that that was not realistic. So just being honest 
with the appraisal here and the assessment of how we are 
actually able to do any level of harvest.
    And again, it is expensive to harvest up there. We 
understand that. We know that. We have been dealing with this 
for decades.
    I am frustrated every time I have this conversation with 
either the Chief of the Forest Service or the Secretary of 
Agriculture, because I hear that we are with you, we understand 
you but then year after year we come to these budget hearings 
and, in fairness, the proof in terms of what we have been able 
to see with levels of harvest, have been very, very 
disappointing. So I am somewhat optimistic with the agreement 
that was signed, the pilot. That is important moving forward. 
We are all working with you and we really, really appreciate 
the commitment from the teams that are focused on the Alaska-
specific Roadless, the rulemaking there.
    It is my understanding that we are still on target time 
wise for that draft EIS. Is that your understanding?
    Ms. Christiansen. We are absolutely highest priority. We're 
on time for the draft EIS for this summer.
    The Chairman. And that is early summer?
    Ms. Christiansen. Yup.
    The Chairman. And then with regards to the inventory that I 
had requested a couple years ago to complete the comprehensive 
inventory to determine the volume and the timing, what is the 
status of that inventory? And what is the service planning to 
do with that data when it is available?
    Ms. Christiansen. You bet, Senator.
    The field work of the inventory of the last three years, 
nearly 32,000 acres were inventoried. And again, it's to give 
us a much clearer picture about the mix between old growth and 
viable second growth.
    The Chairman. Getting the information before we act was, I 
thought, a pretty straightforward way to operate. Let's 
understand what it is that we have and the timing. So we are 
now getting through to that inventory?
    Ms. Christiansen. Yes.
    So the inventory is complete and the analysis, we're 
working very closely with the State of Alaska together----
    The Chairman. Yes.
    Ms. Christiansen. ----on the analysis and the final report 
will be expected late this summer. And you know, it will help 
us really see what that transition looks like. And we will make 
the necessary adjustments in the forest plan as needed.
    The Chairman. That was the question that I was going to ask 
is, it is one thing to get the data to understand that 
inventory but then, how will we use that to address the plan 
itself?
    Ms. Christiansen. We, as I've committed in the past, we 
will do the appropriate forest plan amendments with the real 
data that will be apparent in just the months ahead.
    The Chairman. Okay.
    Then just very quickly, because I have to get down to the 
vote there. Nobody has really mentioned the beetle kill in 
Alaska, the Spruce Bark Beetle. There was a time when down on 
the Kenai Peninsula the beetle just ran through that part of 
the state. Now we are seeing it move further north into the 
Mat-Su Valley into the Anchorage area. It really is striking, 
as I drive around and fly around, to see how these beetles have 
moved northward.
    Can you give me an update on what the Forest Service is 
doing with regards to surveys to understand the extent that we 
are seeing, because it is clearly on the rise in Alaska and I 
would imagine that we have similar infestations in other parts 
of the country that you are following.
    Ms. Christiansen. Absolutely, Senator.
    We have, working with our forest health protection staff 
and the Alaska Division of Forestry, it is primarily on state 
and private lands right now. So we, you know, we----
    The Chairman. This is the area that is north of Anchorage 
then?
    Ms. Christiansen. Yes, yes.
    The Chairman. Okay.
    Ms. Christiansen. And there's a Spruce Beetle working 
group, so we can help better prepare communities and help 
landowners with safeguarding their trees. And we are looking 
together at new methods of suppression in Alaska, some systemic 
insecticides and anti-aggregate pheromone are in research 
trials right now. And so, we are using our Western Bark Beetle 
Initiative to fund the State of Alaska to help do this work.
    The Chairman. Does this require some form of a match from 
the state? How are you working with the state on this?
    Ms. Christiansen. Yeah, it's our Cooperative Forest 
Authorities.
    The Chairman. Okay.
    Ms. Christiansen. That does require a match from the state. 
They can use, you know, the fire funds. It's a pretty broad 
match. That's, you know, their duty of the state and private 
function of the Forest Service.
    The Chairman. Well, it is something that I am going to want 
to try to get a better handle on--working with the state and 
their folks.
    Ms. Christiansen. Okay.
    The Chairman. We are dealing with some relatively 
significant budget issues up in the state and this is something 
where I know there is a very, very keen interest. It was this 
area that was hit with the Sockeye Fire several years back that 
just devastated that area.
    Ms. Christiansen. Yup.
    The Chairman. And I am not quite sure about these different 
applications that you are talking about.
    Ms. Christiansen. They're just research trials that we're--
--
    The Chairman. Okay, good.
    Ms. Christiansen. ----for our research and development, 
we're trying to lean into new learning.
    The Chairman. Okay.
    Last question for you and then I will turn it over to 
Senator Gardner, and this is the air tanker issue.
    Back in FY'12 the Forest Service initiated a study on the 
effectiveness of the aerial firefighting fleet, and it was 
supposed to help inform you to make better decisions on the use 
of aircraft and potentially lower the suppression costs. It has 
now been seven years and apparently we are still waiting for 
the final report.
    I asked, I guess it was last year at this hearing, about 
the status on the report, and I was told that we were going to 
be getting an update on that relatively soon. Now we are a year 
later so the question is, where is the report, why is it taking 
so long and how much of the Forest Service wildfire budget has 
been used for aerial wildfire fighting in the past five years?
    What I am trying to get at, and we've had this conversation 
before, is are we being smart? These are expensive assets. Are 
we using them as wisely and efficiently as we can?
    Ms. Christiansen. Yeah, I absolutely share your concern and 
your questions, and the aerial firefighting use and 
effectiveness study, you know, was an issue in 2012. I am low 
on patience as well, Senator, but this is, you know, it's a 
complex and labor-intensive endeavor to actually----
    The Chairman. But should it really require seven years to 
get it like this?
    Ms. Christiansen. To have enough, when you have to take 
these assessment teams and they have to be on the fire scene 
and you have to get enough data to get what the trend line is, 
it does take some time.
    We have some early results that show that definitely the 
direct attack strategies with helicopters are the most 
effective. And close behind that for direct attack with the 
large air tankers are also, we're confident in their 
effectiveness.
    The early results are showing that the indirect attacks 
where we would lay retardant or water out, you know, away from 
the fire boundary and it's going to burn to it, now that's 
where we have more concerns about the effectiveness and we'll 
be drilling in deeper.
    And I'd be glad to--I know our staff has been keeping your 
staff informed, but I'd be glad to get our staff up here and 
drill deeper into this with you.
    The Chairman. Well, I know that there are members of the 
committees that are interested in this and perhaps at the 
hearing that we have in a month or so about the fire report, 
maybe you can be prepared to give us a little more update on 
that.
    Ms. Christiansen. Sure.
    The Chairman. Because again, what we are trying to do here, 
we dealt with the fire fix last year. We are going to end fire 
borrowing. We are going to try to be smarter there. But I think 
it is only right that we really ensure that we are spending 
wisely when it comes to the fire suppression assets.
    Ms. Christiansen. You bet.
    The Chairman. So I understand that getting the data takes 
some time, but seven years is a long time to try to get a 
better handle on things. And if it is seven years where we are 
not being as effective as we could, we have to address that. So 
I will look forward to more conversation with you there.
    I thank you for the opportunity that you have given to the 
Committee. I am now going to turn the gavel over to Senator 
Gardner, and I am going to go vote.
    Have you voted?
    Senator Gardner. I have.
    The Chairman. I am going to go vote and, Senator Gardner, 
if you wouldn't mind just closing down the hearing when you are 
done or, if other members come, give them that opportunity?
    Chief, thank you for being here, and I look forward to 
working with you on a lot of these issues.
    Thank you.
    Ms. Christiansen. Thank you, Senator.
    Senator Gardner [presiding]. Thank you, Madam Chair, and 
thank you, Chief Christiansen, for being here.
    There is a technical term I want to use for the length of 
time it has taken to get that study done, and it is ``bunk.'' I 
am sorry. It is just a bunch of bunk that it has taken seven 
years to get this done.
    We fought a World War in four years. We built the Pentagon 
in 16 months. We can't do a study in two years, one year, three 
years, four years, maybe five years? It has taken seven years 
to do this? In the meantime, we have western states that have 
had significant catastrophic fire.
    I understand the importance to get the information right, 
but doggone it, somebody needs to get a, sorry, fire lit 
underneath them to get something done on this study. That is 
exactly what needs to happen.
    I was concerned last year about the decisions on some of 
the aerial assets, and perhaps your office can follow up with 
ours in terms of the costs that it took to bring in some of the 
contract aerial support that we avoided last year and did not 
bring on early on. Maybe we saved money, maybe we didn't. I 
would be interested to see what the bottom line is after last 
year's fire season to see whether or not the decision to avoid 
some of the contract support led to cost savings or cost 
overruns on that front. So just get the study done. Thank you, 
Chief.
    The Lands bill obviously contains some very important 
provisions for the forests in Colorado. We just passed a 
Drought Contingency Plan through the Senate, or will be today, 
dealing with our drought conditions in our forests. The drought 
conditions along the Colorado River Basin states, but certainly 
our forests, have been highly affected by that over the past 
several years. So if you could just quickly give me a synopsis 
of where you think implementation will go with some of the 
provisions in the Lands bill and what we need to do in terms of 
furthering the dialogue or furthering the process of our fire 
borrowing authorities that have been put in place there.
    Ms. Christiansen. Yes, thank you.
    In respect to the Lands bill, we take this as a priority. 
I've assembled a team in the headquarters to make sure that 
we're on every element of the Lands package, and we'll be 
implementing those sections as quickly as possible. Be glad to 
keep you informed.
    In regards to the fire funding fix, the forest management--
--
    Senator Gardner. How we are proceeding, yes.
    Ms. Christiansen. Yes.
    We are, I know you didn't hear my opening statement. As I 
say it, this is not business as usual at the Forest Service, 
and we are implementing the new authorities as quickly as we 
can, Senator.
    Immediately, we updated every Good Neighbor Agreement that 
we have. We have nearly 200 now in 37 states to add the 
provision that we could do road repair and reconstruction. That 
really opened up a lot more capability that we could do these 
cross-boundary projects together.
    We are working in a couple different places on the 20-year 
Stewardship Contract. We are using the insects and disease in 
the forest resilience categorical exclusions. We have nearly 
185, they told me, of these authorities in play, the 
categorical exclusions.
    So we have rolled up our sleeves, and we're really finding 
it helpful. We're learning a lot, and I'm pleased to say we've 
got more land treatment than we had in the past, since 20 years 
ago. We treated 3.4 million acres of hazardous fuels and 
produced 3.2 billion board feet of timber.
    Senator Gardner. Thank you, Chief.
    With that, your comments will be made part of the record. 
And if you have questions for the record, we would just ask 
that you reply as quickly as possible for the record.
    There are no other comments from the members here. Thank 
you very much for your time today.
    Ms. Christiansen. Thank you, Senator, appreciate it.
    Senator Gardner. Thanks.
    [Whereupon, at 11:33 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre></body></html>
